IN THE
SUPREME COURT OF UNITED STATES

NAORA BEN-DOV,
Plaintiff/Appellant,
v.
SHOSHANA ZELDA SRAGOW (aka STACY SUZANNE SRAGOW),
ALLEN PHILIP SRAGOW,
TAMAR MIRIAM BRETON,
Defendants/Respondents

U.S. District Court for Central CA, Santa Ana Case No. 8H7-cv00122-DFM
After Decision by the Ninth Circuit Court of Appeals
Ninth Circuit Court Case No. 17-56807
Petition for an Extension of Time to File a Writ of Certiorari Case No. 18A931

PROOF OF SERVICE
I, Naora Ben-Dov, do swear or declare that on this date, August 5, 2019, as
required by Supreme Court Rule 29 I have served the enclosed PETITION FOR A
WRIT OF CERTIORARI on each party in the above proceeding, or that party’s
counsel, and on every other person required to be served, by depositing an envelope
containing the above documents to the United States mail properly addressed to
each of them and with first class postage prepaid.
The names and address of those served:
Shoshana Zelda Sragow (aka Stacy Suzanne Sragow),
Allen Philip Sragow,
Tamar Miriam Breton
Attorney for all the Defendants: Allen Philip Sragow, CA Bar# 183743
1360 Dickerson Road, Teaneck, NJ 07666

I declare under the penalty of perjury that the foregoing is true and correct.
Executed on: August 5, 2019

/s/ Naora Ben-Dov

